     Memorandum from the Office of the Inspector General



     September 28, 2009

     Kimberly S. Greene, WT 7B-K

     REQUEST FOR FINAL ACTION – INSPECTION 2008-12039 – DISTRIBUTOR REVIEW
     OF HICKMAN-FULTON COUNTIES RURAL ELECTRIC COOPERATIVE CORPORATION



     Attached is the subject final report for your review and action. Your written comments,
     which addressed your management decision and actions planned or taken, have been
     included in the report. Please notify us when final action is complete.

     Information contained in this report may be subject to public disclosure. Please advise us
     of any sensitive information in this report that you recommend be withheld.

     If you have any questions, please contact Andrea L. Williams, Senior Auditor, at
     (865) 633-7375 or Jill M. Matthews, Deputy Assistant Inspector General, Audits and
     Support, at (865) 633-7430. We appreciate the courtesy and cooperation received from
     your staff during the audit.




(For) Robert E. Martin
     Assistant Inspector General
      (Audits and Inspections)
     ET 3C-K

     ALW:SDB
     Attachment
     cc (Attachment):
           Peyton T. Hairston, Jr., WT 7B-K
           Tom D. Kilgore, WT 7B-K
           John E. Long, Jr., WT 7B-K
           Richard W. Moore, ET 4C-K
           Emily J. Reynolds, OCP 1L-NST
           John M. Thomas III, WT 4B-K
           John G. Trawick, WT 3D-K
           OIG File No. 2008-12039
                         Tennessee Valley Authority
                         Office of the Inspector General


Inspection Report

DISTRIBUTOR REVIEW
OF HICKMAN-FULTON
COUNTIES RURAL
ELECTRIC
COOPERATIVE
CORPORATION


Audit Team                                   2008-12039
Andrea L. Williams                     September 28, 2009
Jennifer R. Torregiano
Laura E. Huffine
Stephanie L. Simmons
Daniel C. Wright
Office of the Inspector General                                                                  Inspection Report




TABLE OF CONTENTS
EXECUTIVE HIGHLIGHTS ............................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 2

FINDINGS ......................................................................................................... 3

   PROPER REPORTING OF ELECTRIC SALES AND
   NONDISCRIMINATION IN PROVIDING POWER TO MEMBERS OF THE
   SAME RATE CLASS ........................................................................................ 3

   CONTRACT COMPLIANCE ISSUES ............................................................... 5

   USE OF ELECTRIC SYSTEM REVENUES ..................................................... 6

   TVA OVERSIGHT OPPORTUNITIES .............................................................. 8

RECOMMENDATIONS .................................................................................. 9


APPENDICES
A. LETTER DATED SEPTEMBER 4, 2009, FROM GREG GRISSOM TO
   ROBERT E. MARTIN

B. MEMORANDUM DATED SEPTEMBER 17, 2009, FROM KIMBERLY S.
   GREENE TO ROBERT E. MARTIN




Inspection 2008-12039
                         TVA Office of                                     September 2009
                         the Inspector                                 Inspection 2008-12039
                         General                                       Hickman-Fulton Counties Rural
                                                                       Electric Cooperative Corporation
Why the OIG Did This Review                                            What the OIG Found
The OIG performed a review of Hickman-Fulton Counties Rural            Our review of Hickman-Fulton found no material issues related to use of
Electric Cooperative Corporation (Hickman-Fulton), which is a          revenues for approved purposes. However, we found improvements were
distributor of TVA power based in Hickman, Kentucky, with              needed in the following areas:
annual revenues of approximately $9.1 million in fiscal year
2008. TVA relies on distributors to self-report customer usage         •   Metering—We identified metering issues that could result in (1) inaccurate
and subsequently the amount owed to TVA (Schedule 1).                      billing of electric sales by the distributor to their customers and therefore,
Customers are generally classified as residential, commercial,             impact the electric sales reported on the distributor's financial reports to TVA
and manufacturing. Within these classifications are various rate           and (2) disparate treatment among similarly situated customers that could be
classes based on the customer type and usage.                              construed, under Section 5 Resale Rates of the power contract, as
                                                                           discrimination in providing power to members of the same rate class. We
The objective of the review was to determine compliance with               were unable to estimate the monetary effect because sufficient information
key provisions of the power contract between TVA and                       was not available. Specifically, we noted:
Hickman-Fulton, including (1) proper reporting of electric sales
                                                                           −   Independent meter testing in 2008 identified 18 meters with power
by customer class to facilitate proper revenue recognition and
                                                                               factors below 85 percent. Customers with a power factor below
billing by TVA; (2) nondiscrimination in providing power to
                                                                               85 percent are required to have a demand meter that measures kVA
members of the same rate class; and (3) use of revenues,
including any surplus, for approved purposes, such as operating                installed to correctly calculate demand charges on the monthly bill. At
expenses, debt service, tax equivalent payments, and                           the time of this report, Hickman-Fulton still had 16 customers which
reasonable reserves for renewals, replacements, and                            needed demand meters that measure kVA.
contingencies.                                                             −   A customer with a seasonal commercial grain bin metered with the
                                                                               residence. Although this is allowed by the Residential Retail Rate
What the OIG Recommends                                                        Schedule as long as the majority of usage is residential, other customers
                                                                               with seasonal commercial structures were separately metered and billed
We recommend the Chief Financial Officer (CFO) work with                       at a commercial rate which results in a separate higher customer charge
Hickman-Fulton to (1) develop and implement a process to test                  and, if applicable, additional charges for demand. For one month of the
in-house any meters identified during independent testing with a               year, the majority of the usage by this customer was attributable to
power factor below 85 percent and install demand meters that                   commercial use.
measure kVA as needed and (2) ensure all customers with                •   Contract Compliance—Hickman-Fulton's contract with TVA requires it to
                1
appurtenances used for commercial operations are metered                   have contracts with all customers whose demand is greater than 50 kW. Our
the same. In addition, the CFO should establish guidance for               review found required contracts for Hickman-Fulton customers with demand
distributors on allowable appurtenances and at what point in
                                                                           greater than 50 kW were not in place for all customers.
time the use must be predominately residential to qualify for a
residential rate.                                                      In addition, we found Hickman-Fulton had more than enough cash on hand to
                                                                       fund planned capital projects and provide a cash reserve. The cash reserve
In separate reports issued on other distributors in May 2009,
                                                                       after planned capital projects was about 6 percent which was within the
TVA responded to and provided an action plan for findings
                                                                       guidelines (cash ratio of 5 percent to 8 percent) TVA established to determine if
related to (1) contracts for customers whose demand exceeds
                                                                       a distributor has adequate cash reserves.
50 kW and (2) guidance for distributors on what constitutes
prudent expenditures.
                                                                       •   As of June 30, 2008, Hickman-Fulton reported about $983,000 in cash and
TVA and Hickman-Fulton management agreed and are taking                    cash equivalents and planned capital expenditures of about $501,000,
actions to address one recommendation. TVA and Hickman-                    leaving cash reserves of about $482,000; however, an ice storm in January
Fulton management disagreed with the recommendation related                2009 caused extensive damage to the distributor's system that consumed
to ensuring all customers with appurtenances are metered the               most of the cash reserves and necessitated a loan of $12 million.
same. Additionally, TVA management disagreed with the
recommendation to provide additional guidance to distributors          Finally, we also identified opportunities to enhance TVA oversight of the
on appurtenances. See Appendices for complete responses.               distributors. Specifically, TVA has not provided guidance for distributors on (1)
                                                                       what types of appurtenances1 are allowed or at what point in time the use must
For more information, contact Andrea Williams, Senior Auditor, at      be predominately residential and (2) what constitutes prudent expenditures.
(865) 633-7375 or Jill Matthews, Deputy Assistant Inspector General,
Audits and Support, at (865) 633-7430.



    1
        For purposes of the power contract, an appurtenance is property, like another building, that is on the same property. Webster's
        legal definition states an appurtenance is property (as an outbuilding or fixture) or a property right (as a right of way) that is
        incidental to a principal property and that passes with the principal property upon sale or transfer.
                                                                                                                                            Page i
Office of the Inspector General                                                             Inspection Report


BACKGROUND
The Hickman-Fulton Counties Rural Electric Cooperative Corporation (Hickman-
Fulton) is a distributor for the Tennessee Valley Authority (TVA) power based in
Hickman, Kentucky, with revenues from electric sales of approximately
$9.1 million in fiscal year (FY) 2008. TVA relies on distributors to self-report
customer usage and subsequently the amount owed to TVA (Schedule 1).
Customers are generally classified as residential, commercial, and
manufacturing. Within these classifications are various rate classes based on
the customer type and usage. Table 1 shows the customer mix for Hickman-
Fulton as of June 2008.

                     Hickman-Fulton's Customer Mix as of June 2008

                                                Number of                                    Kilowatt
       Customer Classification                                          Revenue
                                                Customers                                   Hours Sold
    Residential                                            2,925            $4,690,038         47,909,627
    General Power – 50 kW and Under
    (Commercial)                                             758               752,789          6,445,446
    General Power – Over 50 kW
    (Commercial or Manufacturing)                             86             3,512,983         43,384,189
    Street and Athletic                                        2                 2,131             20,634
    Outdoor Lighting1                                          0               139,770          1,294,962
     Total                                                 3,771            $9,097,711         99,054,858
                                                                                                   Table 1

The distributors are required to establish control processes over customer setup,
rate application, and measurement of usage to ensure accurate and complete
reporting to TVA. Hickman-Fulton, like many other distributors, outsources its
billing and invoice processing to a third-party processor, Southeastern Data
Corporation (SEDC).2 It uses SEDC systems to establish and set up new
customers, input customer meter information, perform the monthly billing
process, and execute customer account maintenance. All other accounting and
finance responsibilities are done by Hickman-Fulton, which has a Board of
Directors providing oversight and a general manager managing the daily
activities. Hickman-Fulton does not have any nonelectric business interests.




1
    This customer count represents those customers who only have Outdoor Lighting accounts with Hickman-
    Fulton. Another 1,542 customers at June 30, 2008, had outdoor lighting accounts with Hickman-Fulton as
    well as accounts for other services. The kilowatt hours sold include all kilowatt hours for all accounts.
2
    Hickman-Fulton used National Information Solutions Cooperative as the third-party processor during the
    audit period. It switched to SEDC in the fall of 2008 and converted all its data into the SEDC system at
    that time. All billing data examined in the review was provided by SEDC.
Inspection 2008-12039                                                                                  Page 1
Office of the Inspector General                                        Inspection Report


OBJECTIVE, SCOPE, AND METHODOLOGY
This review was initiated as a part of our annual workplan. The objective was to
determine compliance with key provisions of the power contract between TVA
and Hickman-Fulton, including:

•   Proper reporting of electric sales by customer class to facilitate proper
    revenue recognition and billing by TVA.
•   Nondiscrimination in providing power to members of the same rate class.
•   Use of revenues, including any surplus, for approved purposes, such as:
    − Operating expenses;
    − Debt service;
    − Tax equivalent payments; and
    − Reasonable reserves for renewals, replacements, and contingencies.

To achieve our objective, we:

•   Documented and assessed the controls over new customer account setup
    and master file maintenance.
•   Documented and tested the procedures and controls in place to ensure
    proper sales cutoff.
•   Documented and tested the procedures and controls in place to ensure
    complete and accurate invoicing of payments to TVA.
•   Determined through inquiry and review of documentation whether Hickman-
    Fulton had any nonelectric, system-related business interests supported by
    electric system funds.
•   Reviewed disbursements to determine if electric system funds were used for
    any items not allowed under the TVA power contract.
•   Reviewed cash and cash equivalents in relation to planned capital
    expenditures and other business uses of cash.
•   Used nonstatistical sampling methods as needed to perform the tests above.

The scope of the review was for the period July 2006 through June 2008.
Fieldwork was conducted in September and October 2008 and follow-up
fieldwork was conducted in March, May, and July 2009. This review was
conducted in accordance with the "PCIE Quality Standards for Inspections."




Inspection 2008-12039                                                            Page 2
Office of the Inspector General                                           Inspection Report


FINDINGS
Our review of Hickman-Fulton found no material issues related to use of
revenues for approved purposes. However, we found improvements were
needed in certain areas. Specifically, we found (1) metering issues that could
result in (a) inaccurate billing of electric sales by the distributor to their customers
and therefore, impact the electric sales reported on the distributor's financial
reports to TVA and (b) disparate treatment among similarly situated customers
that could be construed, under Section 5 Resale Rates of the power contract, as
discrimination in providing power to members of the same rate class and (2) a
lack of compliance with contract provisions related to customers with demand
greater than 50 kW.

In addition, we found at June 30, 2008, Hickman-Fulton had more than enough
cash on hand to fund planned capital projects and provide a cash reserve. The
cash reserve after planned capital projects was about 6 percent which was within
the guidelines (cash ratio of 5 percent to 8 percent) TVA established to determine
if a distributor has adequate cash reserves. However, an ice storm in January
2009 caused extensive damage to the distributor's system that consumed most
of their cash reserves and necessitated a loan of $12 million. Finally, as we
explain later, there are certain opportunities to enhance TVA oversight of the
distributors.

PROPER REPORTING OF ELECTRIC SALES AND
NONDISCRIMINATION IN PROVIDING POWER TO MEMBERS
OF THE SAME RATE CLASS
As discussed below, we identified issues involving the metering of customers
which could impact the billing of electric sales by the distributor to their
customers and therefore, the electric sales reported on the distributor's financial
reports to TVA. In addition, one of these issues impact the ability to ensure
nondiscrimination in providing power to members of the same rate class as
provided for in Section 5 Resale Rates subsection (a) of the power contract
between TVA and Hickman-Fulton which states that "power purchased
hereunder shall be sold and distributed to the ultimate consumer without
discrimination among consumers of the same class and that no discriminatory
rate, rebate, or other special concession will be made or given to any consumer,
directly or indirectly." We were unable to estimate the monetary effect because
sufficient information was not available.

•   In 2008, independent meter testing was conducted which identified several
    metering-related issues the distributor is still resolving. Testing identified: 
    −    Eighteen GSA customers whose power factor fell below 85 percent.
         According to the power contract, customers whose power factor falls



Inspection 2008-12039                                                               Page 3
Office of the Inspector General                                                             Inspection Report


          below 85 percent require a demand meter which measures kVA3 to
          properly determine demand4 charges on the customer bill. Currently, two
          of the 18 customers have this type of demand meter installed at their
          location. According to the Hickman-Fulton engineer, these customers'
          demand meters do not measure kVA. In addition, the distributor does not
          currently have a process to test these meters outside of independent
          testing; however, Hickman-Fulton management stated they would be
          developing and implementing a process for in-house testing on the
          16 meters to determine if the independent meter testing results were
          accurate and, if so, installing a demand meter which measures kVA at the
          customer's location. While the lack of a kVA measurement would not
          impact wholesale information reported on the Schedule 15, this could
          impact demand charges billed to the distributor’s customers and therefore,
          electric sales stated on the distributor's financial reports to TVA. However,
          without a kVA measurement to compare to metered demand, we could not
          estimate the monetary impact of this issue. 
      − One GSA, part 1 commercial customer's meter was not measuring
        consumption. According to the Hickman-Fulton business manager, the
        customer's meter was replaced, and the customer was backbilled in
        June 2009 using estimated power usage based on historic data. The
        business manager also stated that an adjustment will be made to the
        subsequent TVA Schedule 1 to reflect the incorrect usage due to the bad
        meter reported in previous months. Hickman-Fulton is currently working
        with TVA personnel to add the information to the Schedule 1.
      − One GSA, part 1 commercial customer's meter multiplier in the system
        differed from the meter multiplier identified during independent testing.
        The billing system reflected a meter multiplier of 1 for the customer and
        independent testing identified the multiplier as 40. This resulted in the
        customer only being billed for 1/40th of their actual consumption.
        According to the Hickman-Fulton business manager, the customer was
        backbilled in June 2009 for the error, and the subsequent TVA Schedule 1

3
    A volt-ampere (VA) is the measure of apparent power, or the total power in an AC circuit. The practical
    unit of apparent power is the kilovolt-ampere (kVA). Real power, measured in watts, is the actual power
    used by the load. The power factor is obtained by dividing the real power by the apparent power.
    For billing purposes, a customer’s monthly billed demand is determined to be "the higher of the highest
    average during any 30-consecutive-minute period of the month of (a) the load metered in kW or
    (b) 85 percent of the load in kVA plus an additional 10 percent for that part of the load over 5,000 kVA."
4
    Demand is a measure of the rate at which energy is consumed. The demand an electric company must
    supply varies with the time of day, day of the week, and the time of year. Peak demand seldom occurs for
    more than a few hours or fractions of hours each month or year, but electric companies must maintain
    sufficient generating and transmission capacity to supply the peak demand. Demand charges represent
    the high costs electric companies pay for generating and transmission capacity that sits idle most of the
    time. Demand charges are based on the amount of energy consumed in a specified period of time known
    as a demand interval. Demand intervals are usually 15 or 30 minutes.
    For TVA distributors, the commercial and manufacturer Schedules of Rates and Charges direct that
    metered demand be calculated as "the highest average during any 30-consecutive-minute period of the
    month of the load metered in kW."
5
  Monthly metered demand readings in kilowatts are included on the Schedule 1. KVA is used only to
  determine the monthly demand charge billed to the customer.
Inspection 2008-12039                                                                             Page 4
Office of the Inspector General                                                                   Inspection Report


           will be adjusted for the error. Hickman-Fulton is currently working with
           TVA personnel to add the information to the Schedule 1.
•     We also found one customer with a grain bin used seasonally for a
      commercial farming business which was metered and billed with the
      customer's residence. Under the Residential Retail Rate Schedule within the
      power contract, appurtenances are allowed to be metered and billed with a
      residence as long as the majority of use is for residential purposes. We found
      the customer's usage was predominately nonresidential for one month in
      FY 2007 and one month in FY 2008 when the grain bin was in use.
      Specifically, the usage for the grain bin when in operation was estimated at
      57 percent of the total monthly usage for 2007 and 70 percent for 2008. We
      noted eight other Hickman-Fulton seasonal customers with nonresidential
      structures that were treated differently. These eight were metered separately
      from the residence and billed at a commercial rate using the General Power
      Rate – Schedule GSA;6 thus, they would incur a higher customer charge and,
      if the customer's demand exceeds 50 kW, demand charges in addition to
      energy usage charges.

CONTRACT COMPLIANCE ISSUES
Our review noted Hickman-Fulton was not following the requirements of the
power contract with TVA. Specifically, we found contracts were generally not in
place for customers whose power demand exceeds 50 kW in a month. Under
Hickman-Fulton's contract with TVA, all customers that exceed 50 kW monthly
are required to sign a formal contract. According to Hickman-Fulton
management, this requirement has not been enforced by TVA, and currently only
the largest 4 customers of the 64 customers with demand over 50 kW have
contracts. The contract includes a contract demand which is used in placing the
customer in the correct classification. For example, a customer becomes a GSA
Part 2 when either (1) the customer's currently effective contract demand or its
highest billing demand during the latest 12-month period is more than 50 kW but
less than 1,000 kW or (2) the customer's billing demand is less than 50 kW and
its energy takings for any month during such period exceed 15,000 kWh.
Contract demand is also used in calculating the customer's billed demand and
minimum bill.



6
    Under the General Power Rate – Schedule GSA between Hickman-Fulton and TVA, customers are
    classified as GSA Part 1, GSA Part 2, or GSA Part 3 based on the following requirements:
    • GSA Part 1 – If (a) the higher of (i) the customer's currently effective contract demand, if any, or (ii) its
      highest billing demand during the latest 12-month period is not more than 50 kW and (b) customer's
      monthly energy takings for any month during such period do not exceed 15,000 kWh.
    • GSA Part 2 – If (a) the higher of (i) the customer's currently effective contract demand or (ii) its highest
      billing demand during the latest 12-month period is greater than 50 kW but not more than 1,000 kW or
      (b) the customer's billing demand is less than 50 kW and its energy takings for any month during such
      period exceed 15,000 kWh.
    • GSA Part 3 – If the higher of (a) the customer's currently effective contract demand or (b) its highest
      billing demand during the latest 12-month period is greater than 1,000 kW.
Inspection 2008-12039                                                                                        Page 5
Office of the Inspector General                                                                 Inspection Report


In a separate report on another distributor issued in May 2009, we recommended
the distributor review management reports listing customers that are above
50 kW without a contract and work with these customers to obtain signed
contracts. TVA agreed the Schedule of Rates and Charges requires distributors
to obtain contracts with all customers whose actual or contract demand exceeds
50 kW. However, TVA did not agree with our recommendation to review
management reports listing customers that are above 50 kW without a contract
and work with these customers to obtain signed contracts. Rather, TVA
management prefers to adjust the threshold since the current threshold of 50 kW
was established in 1963 and has not been updated, and putting contracts in
place with all small commercial customers is a time-consuming and difficult task
which may provide little benefit for distributors or the TVA system. TVA
management has said it will recommend to the Board that a new and higher
threshold be established as part of the rate change process with the distributors.
When the rate change is put into effect, all retail customers above the new
threshold would be expected to have executed contracts. Target completion
date will coincide with the rate change efforts that are currently under way with
the distributors and is expected to be in place by October 2010.

USE OF ELECTRIC SYSTEM REVENUES
Under the TVA power contract, approved uses of revenues from electric system
operations, including any surplus, are (1) operating expenses; (2) debt service;
(3) tax equivalent payments; and (4) reasonable reserves for renewals,
replacements, and contingencies. We found at June 30, 2008, Hickman-Fulton
had more than enough cash on hand to cover planned capital projects and
provide a cash reserve. The cash reserve after planned capital projects was
about 6 percent which was within the guidelines (cash ratio7 of 5 percent to
8 percent) TVA established to determine if a distributor has adequate cash
reserves.8 However, an ice storm in January 2009 caused extensive damage to
the distributor's system and consumed virtually all the cash reserves and
necessitated a loan of $12 million.




7
    TVA reviews the cash ratios of distributors as part of its regulatory rate review function. Cash ratio is
    calculated as follows:                         Cash + Cash Equivalents
                            Total Variable Expenses (Operations and Maintenance + Purchased Power)
8
    We noted in separate reports issued on other distributors in May 2009 that while TVA has established
    guidelines to determine if a distributor has adequate cash reserves (cash ratio of 5 percent to 8 percent),
    TVA has not established guidelines to determine if a distributor’s cash reserves are excessive. We
    recommended TVA develop criteria to be used in determining whether a distributor's cash reserves are
    excessive and incorporate the criteria into the rate setting process. TVA management agreed and says it
    will make recommendations to the TVA Board that additional financial metrics be employed for purposes
    of administering the resale rate provisions in Section 5 of the wholesale power contracts. The need to
    consider cash reserves will be included in TVA management's recommendations to the Board. A change
    in the current guidelines to include these additional financial metrics requires Board action. Target
    completion date is December 2010.
Inspection 2008-12039                                                                                      Page 6
Office of the Inspector General                                             Inspection Report


As of June 30, 2008, Hickman-Fulton had about $983,000 in cash and cash
equivalents. Table 2 shows information about plans for major capital
expenditures obtained from the distributor's general manager and our review of
Board of Directors' meeting minutes.

                     Hickman-Fulton Planned Capital Expenditures

                                                                     Project  Planned
                      Capital Expenditure Plans
                                                                      Cost   Completion
Automatic Reading Meters                                             $501,000    FY 2010

Total Cost                                                           $501,000
                                                                                     Table 2

When compared to capital expenditure plans for the foreseeable future, the
balance in Hickman-Fulton's cash accounts was enough to pay for these items
and leave about $482,000 as a reserve, as shown in Table 3. Table 3 also
shows that the cash ratio percentage was about 12 percent before accounting for
planned capital expenditures and about 6 percent after accounting for them.

                     Hickman-Fulton Cash Accounts Compared to
                           Planned Capital Expenditures

                                  Cash and Cash   Planned Capital   Reserve After Planned
                                   Equivalents     Expenditures      Capital Expenditures
                                    $982,651         $501,000             $481,651
FY 2008
Cash Ratio Percentage                11.8%                                  5.8%
                                                                                     Table 3

According to TVA records, over the past five years Hickman-Fulton has been
approved for a rate decrease of 0.66 percent in 2005 and rate increases of
2.68 percent and 4.51 percent in 2008. Table 4 shows the rate decrease and
rate increases received by Hickman-Fulton and the cash position and cash ratio
at June 30 prior to the effective date of the rate increase.




Inspection 2008-12039                                                                 Page 7
Office of the Inspector General                                                       Inspection Report


          Hickman-Fulton Rate Increases, Cash Position, and Cash Ratio


                                                                  Rate Increase
           Cash on Hand            Cash and Cash          Additional/
         Equivalent to an 8%        Equivalents9          (Reduced)             Effective
             Cash Ratio            and Cash Ratio          Revenue     Percent    Date
                                     $1,958,194
                $571,232                                   ($50,000)      (0.66%) 10/1/2005
                                       (CR = 27%)
                                      $1,165,860
                $569,202                                   $200,000        2.68%     4/1/2008
                                       (CR =16%)

                $665,956               $982,651            $349,422        4.51%    10/1/2008
                                       (CR = 12%)
                                                                                        Table 4

In January 2009, the Hickman-Fulton service area experienced an ice storm
which knocked out power to 100 percent of their customers. The cost to repair
the system and restore power to their customers required use of virtually all their
cash reserves in addition to borrowing $12 million. The distributor has submitted
$12.5 million related to ice storm repairs to the Federal Emergency Management
Agency and hopes to recover up to 75 percent of the submitted cost. It is
currently only paying interest on the loan. According to the Hickman-Fulton
business manager, the interest costs on the loan will require the use of all their
annual profit margin, which is about $300,000.

TVA OVERSIGHT OPPORTUNITIES
We found opportunities to enhance TVA's oversight of the distributors.
Specifically, we noted TVA (1) has not provided guidance to distributors on what
types of appurtenances are allowed or at what point in time the use must be
predominately residential and (2) has not provided definitive guidance for
distributors on what constitutes prudent expenditures

Additional Guidance Needed on Appurtenances
As described previously, we found one Hickman-Fulton customer with a grain bin
used for a commercial farming business metered and billed with the customer's
residence. While the Residential Retail Rate Schedule in the power contract
allows appurtenances to be metered with a residence as long as the majority of
use is residential, it does not specifically define what types of appurtenances are
allowed or at what point in time the use must be predominately residential (i.e.,
monthly, yearly, over the life of the account, etc.).

No Policies Defining Appropriate Expenditures
We noted TVA could improve the controls over the use of electric system funds
by providing more definitive guidance to the distributors. While reviewing the
proper use of electric system revenue, we noted there were no definitive policies

9
    The cash and cash equivalents and cash ratio were computed based on information from Hickman-
    Fulton's annual report as of June 30 prior to the effective date of the rate increase.
Inspection 2008-12039                                                                             Page 8
Office of the Inspector General                                      Inspection Report


on permitted expenditures (charity, scholarships, etc.). TVA has allowed
distributor management and distributor Board's discretion in the decision-making
process for determining what qualifies as operational expenditures. Additional
guidance in this area by TVA would decrease the likelihood of misinterpretation
of what constitutes a reasonable use of electric funds. In discussions with the
TVA Vice President, Strategy, Pricing, and Contracts, actions to address
recommendations in a previous review of TVA's Role as a Regulator
(Inspection 2005-522I) include the development of distributor guidance
pertaining to the use of electric system funds.

In a separate report on another distributor issued in May 2009, we recommended
TVA develop a comprehensive guide on permitted expenditures under the use of
electric system revenues provision and expense accrual for distributor
management to use going forward. The Chief Financial Officer (CFO) agreed it
is appropriate to look at permitted expenditures in the context of the use of
revenues provision in Section 6 of the wholesale power contract with the
distributors. TVA management has said it will explore with the TVA Board the
extent to which a comprehensive guideline is feasible and whether the TVA
Board desires to adopt a policy that would employ such a guideline. Target
completion date is December 2010.

RECOMMENDATIONS
We recommend the CFO work with Hickman-Fulton to improve compliance with
the contract. Specifically, Hickman-Fulton should:

1. Develop and implement a process to test in-house any meters identified
   during independent testing with a power factor below 85 percent and install
   demand meters that measure kVA as needed.

    Hickman-Fulton's Response – Hickman-Fulton stated they are currently in
    the process of installing kVA meters at customer locations with a power factor
    below 85 percent. See Appendix A for Hickman-Fulton's complete response.

    TVA Management's Comments – The CFO agreed with our
    recommendation and stated that Hickman-Fulton was in the process of
    addressing this issue. See Appendix B for TVA's complete response.

    Auditor's Response – The OIG concurs with the actions taken.

2. Ensure all customers with appurtenances used for commercial operations are
   metered the same.

    Hickman-Fulton's Response – Hickman-Fulton stated they did not agree
    with the recommendation since the customer with the commercial grain bin
    metered with the residence is primarily a residential customer and the load

Inspection 2008-12039                                                          Page 9
Office of the Inspector General                                     Inspection Report


    profile is 80 percent residential. See Appendix A for Hickman-Fulton's
    complete response.

    TVA Management's Comments – The CFO stated that they would not
    challenge the ruling by the distributor since the grain bin metered with the
    residence is an allowable appurtenance and there is an appropriate basis that
    the majority use of energy is for residential purposes. See Appendix B for
    TVA's complete response.

    Auditor's Response – The OIG agrees that the appurtenance is allowable
    under the contract; however, we maintain that disparate treatment among
    customers with seasonal grain bins could be construed as discrimination in
    providing power to members of the same rate class.
The CFO should:

3. Establish guidance for distributors on allowable appurtenances and at what
   point in time the use must be predominately residential to qualify for the
   residential rate.

    TVA Management's Comments – The CFO disagreed with the
    recommendation and stated that further guidance on appurtenances could not
    be accomplished through administrative guidance and would require a
    change to the Availability section of the Residential Retail Schedule. See
    Appendix B for TVA's complete response.

    Auditor's Response – The OIG believes additional guidance on
    appurtenances would be beneficial to ensure uniform application of the
    Residential Rate Schedule.




Inspection 2008-12039                                                        Page 10
APPENDIX A
 Page 1 of 1
APPENDIX B
 Page 1 of 2
APPENDIX B
 Page 2 of 2
